     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


  National Flood Insurance Program’s Management 

  Letter for FY 2013 DHS Financial Statements Audit 


                     (Redacted)





OIG-14-92                                    May 2014

                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                              MAY52014

MEMORANDUMFOR:            DavidMiller
                            AssociateAdministrator
                            FederalInsuranceandMitigationAdministration
                            FederalEmergencyManagementAgency
                             
FROM:                       AnneL.Richards
                             AssistantInspectorGeneralforAudits

SUBJECT:	                      NationalFloodInsuranceProgram’sManagementLetter
                                forFY2013DHSFinancialStatementsAudit
                               
Attachedforyourinformationisourfinalreport,NationalFloodInsuranceProgram’s
ManagementLetterforFY2013DHSFinancialStatementsAudit.Thisreportcontains
4observationsand12recommendationsrelatedtointernalcontrolformanagement’s
consideration.Theobservationsdidnotmeetthecriteriatobereportedinthe
IndependentAuditors’ReportonDHS’FY2013FinancialStatementsandInternalControl
overFinancialReportingdatedDecember11,2013,whichwasincludedinthe
DepartmentofHomelandSecurity’s(DHS)fiscalyear(FY)2013AgencyFinancialReport.
Wedonotrequiremanagement’sresponsetotherecommendations.

WecontractedwiththeindependentpublicaccountingfirmKPMGLLP(KPMG)to
conducttheauditoftheDHS’FY2013financialstatementsandinternalcontrolover
financialreporting.ThecontractrequiredthatKPMGperformitsauditaccordingto
generallyacceptedgovernmentauditingstandardsandguidancefromtheOfficeof
ManagementandBudgetandtheGovernmentAccountabilityOffice. KPMGis
responsiblefortheattachedmanagementletterdatedDecember11,2013,andthe
conclusionsexpressedinit.

ConsistentwithourresponsibilityundertheInspectorGeneralAct,wewillprovide
copiesofourreporttoappropriatecongressionalcommitteeswithoversightand
appropriationresponsibilityovertheDepartmentofHomelandSecurity.InaFebruary
18,2014,memorandumtotheOIG,theDHSChiefPrivacyOfficerrequestedthatwe
redactcertaininformationfromthereport.Specifically,thefloodinsurancepolicy
numbersanddateoflossareconsideredSensitivePersonallyIdentifiableInformationas
definedinthePrivacyOffice’sHandbookforSafeguardingSensitivePersonally
IdentifiableInformationattheDepartmentofHomelandSecurity.Asaresult,wehave
redactedthepolicynumbersanddateoflossinformationfromthereportandwillpost
aredactedversionofthereportonourwebsiteforpublicdissemination.
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
   Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                               2                                       OIG-14-92
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006


December 11, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Associate Administrator, Federal Insurance and Mitigation Administration
U.S. Department of Homeland Security Federal Emergency Management Agency
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013, and have issued our report thereon dated
December 11, 2013. In planning and performing our audit of the financial statements of DHS, in
accordance with auditing standards generally accepted in the United States of America and Government
Auditing Standards, we considered internal control over financial reporting (internal control) as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the financial statements.
In conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute of
Certified Public Accountants.
During our audit, we noted certain matters involving the Federal Emergency Management Agency’s
(FEMA) National Flood Insurance Program (NFIP) internal control and other operational matters that are
presented for your consideration. These observations and recommendations have been discussed with the
appropriate members of management of the named insurance companies (where applicable), FEMA’s
Office of the Chief Financial Officer, and FEMA’s Federal Insurance and Mitigation Administration and
communicated through a Notice of Finding and Recommendation. These observations and
recommendations are intended to improve internal control or result in other operating efficiencies, are
summarized in Exhibit I of this letter, and are not considered to reflect significant deficiencies or material
weaknesses in internal control over financial reporting. Significant deficiencies and material weaknesses
in internal control over financial reporting have been previously communicated to the DHS Office of
Inspector General and management in our Independent Auditors’ Report, dated December 11, 2013,
included in the fiscal year 2013 DHS Annual Financial Report.
Certain deficiencies related to FEMA information technology (IT) controls will be presented in a separate
letter to the DHS Office of Inspector General and the FEMA Chief Information Officer. In addition,
certain other deficiencies related to FEMA’s internal control exclusive of our IT findings will be
presented in a separate letter to the DHS Office of Inspector General and the FEMA Chief Financial
Officer.
Our audit procedures are designed primarily to enable us to form opinions on the financial statements and
on the effectiveness of internal control over financial reporting, and therefore may not bring to light all
weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge of the NFIP
gained during our work to make observations and suggestions that we hope will be useful to you.

We would be pleased to discuss these observations and recommendations with you at any time.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
FEMA’s response to the observations and recommendations identified in this communication is presented
in Exhibit II. FEMA’s response was not subjected to auditing procedures applied in the audit of the
financial statements and, accordingly, we express no opinion on the response. Our auditors’ response is
presented in Exhibit III.
The purpose of this letter is solely to describe observations and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any other
purpose.

Very truly yours,
                                                                                                  Exhibit I




I. BACKGROUND

The Federal Insurance and Mitigation Administration of the Department of Homeland Security (DHS)
Federal Emergency Management Agency (FEMA) manages the National Flood Insurance Program
(NFIP). Private insurance companies and the Direct Servicing Agent (DSA) administer the flood
insurance policies issued through the NFIP. The insurance companies and DSA write NFIP policies,
adjust flood claims, process and distribute claim payments to policyholders, and establish and maintain
loss reserves. To assist in the management of the program, the Federal Insurance and Mitigation
Administration has contracted with a third-party service provider. NFIP data is submitted from the
insurance companies and the DSA to the third-party service provider via the Transaction Record
Reporting and Processing (TRRP) system. The data associated with flood policies and claims are used to
calculate estimates included in the year-end NFIP financial statements, which are recorded in the year-end
DHS financial statements. Thus, the precision of the estimates used to reflect actual events is dependent
upon the accuracy and consistency of the underlying data submitted by the insurance companies and the
DSA on a monthly basis.

II. INTERNAL CONTROL DEFICIENCIES RELATED TO CLAIMS

A. Internal Control Deficiencies and Errors Identified over Claims Paid

Observation (NFR FEMA-13-07):

We selected nine insurance companies at which to perform audit procedures over the operating

effectiveness of controls related to claims paid for the periods October 1, 2012, through March 31, 2013, 

April 1 through June 30, 2013, and July 1 through August 31, 2013. For the nine companies selected, we

tested a sample of claims paid totaling 450 items covering the three testing periods identified above.

During this testing, we noted the following internal control deficiencies and errors:


1   Based on March 31, 2013, testwork, for one sample item, the claim was paid without a signed Proof
    of Loss from the insured.

                 Company                Policy No.      Date of Loss    Payment Date
                  Allstate                                               02/10/2013

2   Based on March 31, 2013, testwork, for one sample item, the original Proof of Loss obtained for the
    supplemental payment was not available.

                 Company                Policy No.      Date of Loss    Payment Date
                  USAA                                                   02/13/2013

3   Based on March 31, 2013, testwork, for one sample item, the insurance company did not request a 60­
    day Proof of Loss waiver prior to making the claim payment.

                 Company                Policy No.      Date of Loss    Payment Date
            Southern Farm Bureau                                         03/22/2013




                                                     I.1

                                                                                                  Exhibit I


4   Based on March 31, 2013, testwork, for three sample items, the amount paid to the insured was
    calculated incorrectly.

                                                                        Over/ (Under)
                 Company                Policy No.      Date of Loss      Payment
            Southern Farm Bureau                                           $(6.46)
                  Hartford                                                $(727.79)
                  Travelers                                                $413.58

FEMA’s Federal Insurance and Mitigation Administration did not provide adequate oversight to ensure
claim files were processed and reviewed in accordance with NFIP guidelines before the approval and
issuance of claim payments.

Recommendations:
We recommend that FEMA’s Federal Insurance and Mitigation Administration:
    1)	 Follow-up with each of the insurance companies identified above to determine if appropriate
        corrective action has been implemented to ensure compliance with the Standard Flood Insurance
        Policy’s Proof of Loss Requirement.
    2)	 Enhance monitoring and oversight of the insurance companies participating in the NFIP to
        ensure claims files are being processed and reviewed in accordance with NFIP guidelines before
        approval and issuance of claims.
    3)	 Identify and implement systemic solutions to ensure the accuracy of claim payments based on
        the information documented in the claim file.

B.	 Internal Control Deficiencies and Errors Identified over Claims’ Loss Reserves

Observation (NFRs FEMA-13-15 and FEMA-13-29):
We selected nine insurance companies at which to perform audit procedures over the operating
effectiveness of controls related to the establishment and maintenance of loss reserves for the periods
October 1, 2012, through March 31, 2013, April 1through June 30, 2013, and July 1 through August 31,
2013. For the nine companies selected, we tested a sample of claims paid totaling 450 items covering the
three testing periods identified above to ensure proper establishment and closure of loss reserves. We also
performed substantive audit procedures over the accuracy and completeness of loss reserves reported as
of February 28, 2013, and August 31, 2013, over all insurance companies. As of these dates, we tested a
total sample of 130 loss reserves reported. During these audit procedures, we noted the following internal
control deficiencies and errors:

1)	 Based on our February 28, 2013, and August 31, 2013, substantive testwork, for three sample items,
    the insurance company did not close the claim and/or related loss reserve when the claim was closed
    (paid or closed without payment).

        February 28, 2013, Substantive Testwork Results:

                  Company               Policy No.      Date of Loss   Overstatement
                   USAA                                                   $1,005
                   Allstate                                               $1,000




                                                     I.2

                                                                                                 Exhibit I


        August 31, 2013, Substantive Testwork Results:

                  Company               Policy No.      Date of Loss   Overstatement
                   Allstate                                               $15,000

2)	 Based on our February 28, 2013, substantive testwork, for two sample items, the loss reserve related
    to the claim transaction was not properly updated to reflect advance payments or additional adjuster
    reports.

                  Company               Policy No.      Date of Loss   Overstatement
               Fidelity National
                                                                          $21,895
                  Indemnity
                 Nationwide                                                $2,500

3) Based on our February 28, 2013, substantive testwork, for one sample item, a claim was opened with
   two separate dates of loss, resulting in duplicate loss reserves.

                                                          Correct      Over/(Under)
                 Company                Policy No.      Date of Loss    Statement
               American Bankers                                          $13,500

4) Based on our August 31, 2013, substantive testwork, for one sample item, a claim was reopened to
   correct an overpayment, and reserves were established and remained open in error.

                  Company               Policy No.      Date of Loss   Overstatement
                  Travelers                                               $10,000

5) Based on our August 31, 2013, substantive testwork, for one sample item, the loss reserve was
   calculated incorrectly.

                  Company               Policy No.      Date of Loss   Overstatement
             NFIP Direct Servicing
                                                                            $95
                   Agent

6)	 Based on our August 31, 2013, substantive testwork, for one sample item, the loss reserve remained
    open on a claim with a date of loss older than 20 years which should have been closed due to
    inactivity.

                  Company               Policy No.      Date of Loss   Overstatement
                  Continental                                             $7,600

7)	 Based on our February 28, 2013 and August 31, 2013, substantive testwork, for two sample items, a
    loss reserve transaction was submitted via TRRP with a formatting error, causing loss reserves to be
    overstated.

        February 28, 2013, Substantive Testwork Results:

                  Company               Policy No.      Date of Loss   Overstatement
               Fidelity National
                                                                           $7,500
                  Indemnity



                                                     I.3

                                                                                                  Exhibit I


        August 31, 2013, Substantive Testwork Results:

                   Company              Policy No.      Date of Loss    Overstatement
                Fidelity National
                                                                          $1,485,000
                   Indemnity

8)	 Based on our February 28, 2013, substantive testwork, for two sample items, a 37A (Change
    Reserves) transaction was submitted to update the reserves for an advance payment. As advance
    payments automatically decrease reserves, this transaction double-counted the advance.

                  Company               Policy No.      Date of Loss   (Understatement)
                 Hartford Fire                                            $(15,000)
              Harleysville Mutual                                          $(6,000)

9)	 Based on our February 28, 2013 and August 31, 2013, substantive testwork, for four sample items, a
    close loss transaction was not submitted upon issuance of claim payment; therefore, the loss reserve
    remained opened after claim payment.

        February 28, 2013, Substantive Testwork Results:

                  Company               Policy No.      Date of Loss    Overstatement
             NFIP Direct Servicing
                                                                            $2,618
                   Agent
                   Allstate                                                 $0.11

        August 31, 2013, Substantive Testwork Results:

                   Company              Policy No.      Date of Loss    Overstatement
                   Selective                                                 $2
                   Selective                                                $974

10) Based on our fiscal year 2013 process walkthroughs with Federal Insurance and Mitigation
    Administration personnel, we determined that the insurance companies participating in the NFIP did
    not consistently update loss reserves following the receipt of additional claims adjuster information.
    For example, insurance companies and the DSA are not required to:

        a.	 Update loss reserves within a certain timeframe, or note in claims documentation why loss
            reserves were not updated, after new information is provided by the adjuster, or
        b.	 Review and update loss reserves, or note in claims documentation why loss reserves were not
            updated, as of specific period ends to ensure accurate reporting of loss reserve information to
            FEMA.

Loss reserves were improperly managed based on additional claims-related information received (e.g.,
advanced payments, subsequent adjuster reports, and final payments) or when claims were closed,
improperly created, or incorrectly calculated based on claims-related information received.

TRRP transactions were not adequately reviewed prior to submission by the insurance companies to the
third-party service provider. Additionally, controls were not in place to ensure all required TRRP
transactions were submitted timely.




                                                     I.4

                                                                                                  Exhibit I


FEMA’s guidance to participating insurance companies and the DSA did not include policies and
procedures that require participating companies to adjust loss reserves according to specific guidelines.

Recommendations:
We recommend that FEMA’s Federal Insurance and Mitigation Administration:
    1)	 Follow-up with each of the insurance companies identified above to determine if appropriate
        corrective action has been implemented to address the exceptions noted.
    2)	 Provide increased oversight to insurance companies participating in the NFIP to ensure the
        specific and consistent establishment and reporting of loss reserves and subsequent adjustments to
        the loss reserves.
    3)	 Require insurance companies and the DSA to develop and implement procedures to review
        transactions prior to submission to the third-party service provider and to ensure such transactions
        are submitted timely.
    4)	 Require insurance companies and the DSA to formally document their loss reserving policies and
        procedures at the company level.
    5)	 Perform a regular (e.g., monthly) review of the total outstanding NFIP loss reserve balance for all
        insurance companies and the DSA.

III. INTERNAL CONTROL DEFICIENCIES RELATED TO PREMIUMS WRITTEN

Observation (NFRs FEMA-13-08 and FEMA-13-08a):

We selected nine insurance companies at which to perform audit procedures over the operating

effectiveness of controls related to premiums written for the periods October 1, 2012, through March 31, 

2013, April 1 through June 30, 2013, and July 1 through August 31, 2013. For the nine companies 

selected, we tested a sample of premiums written totaling 450 items covering the three testing periods 

identified above. During this testing, we noted the following internal control deficiencies and errors:


    1)	 Based on our March 31, 2013, testwork, for one sample item, we noted the policy effective date
        was incorrectly calculated from the policy quote date and did not adhere to the standard 30-day
        wait period from the endorsement request date.

                                                            Policy          Correct
                   Company              Policy No.      Endorsement      Endorsement
                                                        Effective Date   Effective Date
                   Travelers                             02/17/2013       02/28/2013

    2)	 Based on our March 31, 2013, and August 31, 2013, testwork, for two sample items, the property
        was not rated using the flood zone identified via the policy’s DHS Standard Flood Hazard
        Determination form.

        March 31, 2013, Control Testwork Results:

                  Company               Policy No.      Correct Zone      Rated Zone
                  Nationwide                                 X                A




                                                     I.5

                                                                                                   Exhibit I


        August 31, 2013, Control Testwork Results:

                                                             Correct
                   Company              Policy No.
                                                              Zone        Rated Zone
                 Hartford Fire                                 AE            V21

    3)	 Based on our June 30, 2013 and August 31, 2013, control testwork, for two sample items, we
        were unable to verify the rated flood zone per the FEMA flood maps.

        June 30, 2013, Control Testwork Results:

                                                                            Address
                   Company              Policy No.          Rated Zone   Description per
                                                                             Policy
             NFIP Direct Servicing
                                                               AE         Rural Route
                   Agent

        August 31, 2013, Control Testwork Results:

                                                                            Address
                   Company              Policy No.          Rated Zone   Description per
                                                                             Policy
             NFIP Direct Servicing                                         ¼ of Sec 20
                                                                A
                   Agent                                                  Township 398

FEMA’s Federal Insurance and Mitigation Administration did not provide adequate oversight to ensure
premiums written were properly reviewed prior to issuance.

FEMA’s NFIP Flood Insurance Manual allows flood insurance applicants to provide a legal description
or geographic location of the insured property in lieu of a street address. The submitted property location
was not verified as FEMA’s NFIP Flood Insurance Manual does not require all flood zones included in
insurance policy applications to be verified by the underwriter.

Recommendations:
We recommend that FEMA’s Federal Insurance and Mitigation Administration:
    1)	 Follow-up with each of the insurance companies identified above to determine if they have
        implemented the appropriate corrective action to address the exceptions noted.
    2)	 Provide increased oversight to insurance companies participating in the NFIP to ensure they
        process and review underwriting files in accordance with NFIP guidelines.
    3)	 Revise the NFIP Flood Insurance Manual to require that all flood zones included in insurance
        policy applications are subject to verification by an underwriter through the use of risk-based
        sampling techniques.




                                                     I.6

                                                                                              Exhibit I


IV. OTHER INTERNAL CONTROL DEFICIENCY

A. Deficiency Identified Related to the National Flood Insurance Program Standards Committee

Observation (NFR FEMA-13-05):
Based on process walkthroughs, we determined the NFIP Standards Committee had not met since
April 2012. Additionally, we determined five vacant positions existed on the Standards Committee as of
July 31, 2013, and had existed for over two months. The five vacant positions represent members of the
designated insurance companies, pools, or other entities.

Additionally, we determined Federal Insurance and Mitigation Administration personnel did not provide
an accurate listing of the current NFIP Standards Committee members in May 2013 upon our request.

Recommendation:
We recommend that FEMA’s Federal Insurance and Mitigation Administration develop and implement
policies and procedures which require the Standards Committee to meet on a periodic basis and ensure
vacancies are filled in a timely manner.




                                                  I.7

                                                                                                                    Exhibit II



                                  MANAGEMENT’S RESPONSE



                                                                          t :.!>. Oeputment of llomel1nd Security
                                                                          500 C Street, SW
                                                                          Washmgton, DC 20-172




                                                                          FEMA
                                          March 19.2014


Memorandum ror:        David Kaufman
                       Associate Admi nistrator
                       Policy. Program Anal) sis a~ I A fTairs

From:                  Edward   L.C~~
                       Associate Admi nistrator
                       rlood Insurance and Mitigation Administration

' ubjcct:              r iMA ·s Response to OIG Draft Report: NFIP '.\ ;\!tma!-!emelll
                       Lellerjbr the F)' 20 IJ DI/S Consolidated Financial Statement Auc/il

!'hank you for the opportuni ty to comment on the FY 2013 draft FIP Management letter for the
FY 20 I3 Consolidated audit. Our comments arc keyed to speci fie NFRs.

FEM A 13-08ll: Internal Control Deficiencies Related to Pre mium Written

The NFI P rules do not require policies to be re-undcr.,..rittcn when they arc moved from one
insurer to another, since those policies arc considered having continuous coverage. When a
polic) conYersion takes place. the polic) is aiiO\\ed to continue v.ith the rating based on the prior
undcnHiting information from the prior insurer. The Write Your Ov.n (WYO) companies arc
responsible lor rating the policies correctl y as required in th~: WYO Arrangement, 44 CFR 62.
The WYO is responsible lor collecting and forwarding the proper premium to the NFIP as \>\ell
as making corrections to the polic).

With regards to the usc of legal description as a propert) address. the NFI P rules allow a legal
description since there arc man) flood applications for buildings in the course of construction
that do not usc a standard street addresses \\ hen applying lor flood insurance coverage.

FL:.M/\ ''ill continue remediation ellorts by developing a corrective action plan lor FY 2014.
subject to resource availability. \\hich will prioriti1..e risk consistcnc) "'ith other FRs and
recognize the progress on cl'lorts already initiated and complewd.

FEMA 13-15 and FEMA 13-29: Deficiencies Identified over C laim 's Loss Reserves at
Selected In surance Companies that Participate in FEMA's National F lood Insurance
Program

1'1 IIA bclic\cS the auditor's concerns mer the current case loss reserve procedures is misplaced
s1nce the case reserves they haYe anal)t.ed arc not directly reported on the linancial statement.
And \\hill.: the loss reserve estimate that is carried on the financial statement is. in part.




                                                    II.1

                                                                                                       Exhibit II




FIMA's Response to OIG Draft Repor1: NfiP" s Management
Leller for the FY 20 13 OilS Consolidated Financial Statemcnt/\udit

Page 2

inOucnced by the case reserves, the NFIP actuaries have demonstrated. in analyses that have
been shared wi th the auditors, that even a large c hange in the adequacy of the case loss reserves
from the historical pattern has only a very small inlluence on the year-end estimated loss reserve.
The actuaries that develop the sensitivity tests and loss reserve estimate that is carried on the
financial statement have repcatetlly assured us that case loss reserves do not have to be
"accurate .. in order for them to make a reasonable loss reserve estimate. What the actuary needs
is a rcasonabl) stabk pattern of total case loss reserves. And the analysis referenced earlier
demonstrates that even when that condition deteriorates it has only minor impact on the loss
reserve that the actuary estimates.

There is no FEM/\ case loss reserving process between FEMA and the Write Your Program.
 lhc regulation at 44 C.:FR Part 62. Appcndix A. the Arrangement. requires the insurers to use
their normal business practices. Rescn ing is one business practice that all property and casual ty
insurers arc involved with. With respect to proper!) reserves. the rescrve may be handled in
tli rrercnt ways by di !Tercnt companies at di fTc rent timcs. In one case just a few years ago. a
WYO only bulked rcscrvcd catastrophe property losses. I hesc short-tail property reserves
(claim is typica lly paid within a year) arc I) pica II) not the precise concern as the longer tail
reserves. such as Workers' Compensation, auto bodily injury. or othcr catastrophic bodily injury
liability claims. The first reserving rule is the company staff managing the case loss reserving
process is given great latitude as to when and how much a reserve should be adjusted.
Reserving. especially case loss reserving is not a science and each individual setting a reserve
may have a different approach. Whether or not a reserve is increased or decreased and when
should be len to the individual setting the reserve, not the adjuster. The adjuster has no authority
other than to recommend. Each insurer can have dirlcrent reserving procedures lor Lhe various
lines of business (i.e.. worker's compensation. liability. homeowners. wind. nood. and such).
FhM/\ recognizes that those rescn ing practiccs that do not take dov. n signi licant reserves to
zero when the claim file is paid and permanently closed with no runher exposure possible should
be notcd.

For the vast majority of NFl P claims. the maxi mum reserve pay mcnt is $250.000 for the
dwelling and $ 100,000 lor dwelling con Lents. However. the average paymenl for all claims after
Sand) was only about $55.000 and in Ncw York onl) the avcrage was $62.000. 1\ very high
percentage or claims are paid on average in less than 60 days unless the proof or loss time
rcquircmcnt is cxtcnded as it was at'ler Sandy lo 18 months. ·1o setup a comrlicatcd reserving
schemc for each flood claim when the majority v. ill be paid and/or closed in less than a year. will
he expensive to imrlcmcnt and is not eiTcctive or practical. The reports recommended by the
auditors can be an cflcctive tool. but Lhc cost of such review and working with each insurer or
through each com pan) 's 'cndor on each individual rcscrve will also be expensive to implement.
 rhis process v..ill also be expensive lor the NF IP insurers and FEMA could be faced with
requests for increases in their expense allowance to reimbursc them l(>r such additional expenses.
FEM/\ i:. concerned that the cost vcrsus bcm.:fit ursuch rcvic'v\ and worl-.. may \o\cigh cxtn.:mdy
heavily on the cost side. for rhc true benefit. as described above. is negligible.




                                                   II.2

                                                                                                          Exhibit II




FIMA's Response to OIG Draft Report: NF IP's Management
Letter lo r the FY 2013 DI IS Consolidated Finnncial Slatcment/\udi t

Page 3

It is importnnt to note that FEM/\ has already taken the step to have theN Fl P insurers' review all
outstanding pre-Sandy reserves and close out those that have been fully paid and no further
exposure exist and to justify the o the rs. In additio n. a systematic process to review reported o pen
reserves when there is an indication that all payments h:l\e been made is in dcvclopmcnt.
Finally. a bulletin is in process to rcqm:stthat a ll WYO Companies provide FI:MA 'Aith their
case loss reserving rractices and procedures. FEMA understnnds that outstanding ICC claims.
those dairns in l itig<.~lion. and an) claims imolved in investigation by OIG. GAO or other
investigative agencies may be open for an ex tended period or time.

FEMA 13-05: Lack of Oversight by the National Flood Ins urance Program Standards
Committee
There is no requirement for the WYO Standards Committee to meet. The Committee oversees
the performance of WYO companies and recomme nds appropriate remedial actions when
companies lailto compl y v. ith the n.:quircrnents or the WYO Financial Control Plan. No WYO
Com pany's perlormance required referral to the WYO Standnrds Commiuee lor remedial or
other action during FY 2013. During the time period under rcviev.. FEMJ\ ovcrsa'A Company
performance through its annual WYO Financial Control Plan rcvie'\ activities. These oversight
activi ties were deemed to provide su fTicient oversight to nllow G/\0 to close recommendations
in Financial A!ana~ement : lmpro11ements Needed in Notional Flood ln,·urmlc:e Pro~ram 's
Financial Contrnl.1· and Oversi~ht. GAO-l 0-66 regard ing FEMA 's oversight of the WYO
companies. The WYO Standards Commillec met on October 30. 20 13 and 'A ill mcet again in
April. 20 14. FEMA has filled all of the vacant industry positions.

I hank you again fo r the opportunit) lo comment on the drali report.




                                                       II.3

                                                                                                 Exhibit III




                                        AUDITORS’ RESPONSE


FEMA’s response to the draft of this letter discussed several specific observations noted in the letter. As
such, we provide the following additional information.

Regarding Observation III.3 (NFR FEMA-13-08a), we specifically noted two instances during our fiscal
year 2013 testing in which the addresses were documented legal descriptions of the property. Although in
compliance with FEMA policy, this specific condition prevented a conclusion regarding the proper flood
zone rating of the policies, including whether the appropriate premiums were collected from the insured.

Regarding Observation II.B (NFRs FEMA-13-15 and FEMA-13-29), in conjunction with our audit
procedures, we received a letter from the FEMA contracted actuary describing the data elements utilized
in computing the actuarial insurance liability estimate as of September 30, 2013. This letter, which guided
our testing approach related to the insurance liability estimate, included case reserves as one of the data
elements used in the calculation. Our testing of data elements occurred throughout fiscal year 2013.
FEMA’s year-end analysis demonstrated that case reserves were not a significant factor in the calculation
of the insurance liability estimate as of September 30, 2013; we took this information into consideration
in determining the severity of the conditions identified, which we concluded to be control deficiencies,
not more severe significant deficiencies.

Additionally, our recommendations related to Observation II.B are not intended to suggest that FEMA
specify a uniform case reserving practice/procedure for all insurance companies participating in the NFIP.
We understand that case reserving is a normal business practice for all property and casualty insurers and
that FEMA must consider the costs versus benefits of implementing changes to such a disaggregated
process. However, each participating insurance company should consistently adhere to its own policies
and procedures related to case reserving, which should be documented as part of the company’s internal
control structure.

Regarding Observation IV.A (NFR FEMA-13-05), we acknowledge the functions of the NFIP Standards
Committee outside of holding meetings. However, we recommend in our letter that the Committee meet
on a periodic basis, in addition to the other review activities it performs, in order to strengthen this
oversight process.




                                                    III.1

   
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   AppendixA
   ReportDistribution
   DepartmentofHomelandSecurity
   
   Secretary
   DeputySecretary
   ChiefofStaff
   DeputyChiefofStaff
   GeneralCounsel
   ExecutiveSecretary
   Director,GAO/OIGLiaisonOffice
   AssistantSecretaryforOfficeofPolicy
   AssistantSecretaryforOfficeofPublicAffairs
   AssistantSecretaryforOfficeofLegislativeAffairs
   ChiefFinancialOfficer
   ChiefInformationOfficer
   ChiefPrivacyOfficer
   
   FederalEmergencyManagementAgency
   
   FEMAAdministrator
   ChiefFinancialOfficer
   FEMAAuditLiaison
   DeputyAssociateAdministratorforInsurance
   Director,RiskInsuranceDivision
   
   OfficeofManagementandBudget
   
   Chief,HomelandSecurityBranch
   DHSOIGBudgetExaminer
   
   Congress
   
   CongressionalOversightandAppropriationsCommittees,asappropriate




www.oig.dhs.gov                                                             OIG-14-92
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
